DECEMBER 8, 2011
  AUDIT REPORT




                                                      OFFICE OF AUDITS




 NASA’S MANAGEMENT OF MOON ROCKS AND OTHER
    ASTROMATERIALS LOANED FOR RESEARCH,
        EDUCATION, AND PUBLIC DISPLAY




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-12-007 (ASSIGNMENT NO. A-11-015-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

ARES         Astromaterials Research and Exploration Science
CAPTEM       Curation and Analysis Planning Team for Extraterrestrial Materials
NPD          NASA Policy Directive
NPR          NASA Procedural Requirements
OIG          Office of Inspector General
μm           Micrometers


                                                                    REPORT NO. IG-12-007
DECEMBER 8, 2011




                                                                                            OVERVIEW

          NASA’S MANAGEMENT OF MOON ROCKS AND OTHER
       ASTROMATERIALS LOANED FOR RESEARCH, EDUCATION, AND
                         PUBLIC DISPLAY

                                                                                              The Issue

   Materials originating from extraterrestrial environments, commonly referred to as
   astromaterials, are a rare and limited resource that serve an important role for research,
   education, and as a legacy for future generations. NASA’s collection of astromaterials
   includes lunar rock and soil samples; meteorites from asteroids, Mars, and the Moon;
   ions from the outer layers of the Sun (Genesis); dust from comets and interstellar space
   (Stardust); and cosmic dust from Earth’s stratosphere. 1 To promote investigation of the
   origin and evolution of the solar system and the nature and distribution of life, NASA
   both studies these materials itself and loans astromaterial samples to researchers
                                                  worldwide. For example, NASA-sponsored
                                                  research on a 4.1-billion-year-old meteorite
                                                  has provided evidence that life may have
                                                  once existed on Mars (see Figure 1). To
                                                  inspire the next generation of explorers,
                                                  enhance the nation’s education system, and
                                                  inform the public about NASA’s space
                                                  programs, the Agency also loans lunar and
                                                  meteorite displays to schools, libraries,
                                                  museums, and planetariums.
   Figure 1. ALH84001 weighs about 4 pounds and
   at 4.1 billion-years-old is NASA’s oldest Martian
                                                  Johnson Space Center’s Astromaterials
   meteorite.                                     Acquisition and Curation Office (Curation
   Source: NASA                                   Office) maintains NASA’s collection of
   astromaterials and distributes samples for scientific study. In addition, the Office makes
   lunar and meteorite samples available to exhibitors, educators, and institutions of higher
   learning through NASA’s Exhibits and Education Programs. The Office manages about
   140,000 lunar samples, 18,000 meteorite samples, and about 5,000 solar wind, comet,
   and cosmic dust samples. As of March 2011, over 26,000 of these samples were on loan
   for scientific study, educational pursuits, and public outreach purposes.

   1
       The origins of NASA’s astromaterial collection are varied. Lunar samples were returned to Earth during
       the 1969–1972 Apollo missions; meteorites were obtained as a result of the Antarctic Search for
       Meteorites Program begun in 1977; solar wind was collected during the 2001 Genesis mission; NASA’s
       Stardust spacecraft – launched in 1999 – collected cometary and interstellar dust particles; and cosmic
       grains and orbital debris from the stratosphere have been collected by high-flying aircraft since 1981.



REPORT NO. IG-12-007
                                                                                                         OVERVIEW



     The Johnson Exhibits Manager, a member of the Johnson Public Affairs Office, is
     responsible for tracking astromaterials loaned for public display. In June 2010, he
     notified NASA Security and the Office of
     Inspector General (OIG) that a lunar sample
     disk, similar to the one in Figure 2, on loan to the
     Mount Cuba Astronomical Observatory in
     Greenville, Delaware, was missing.

     NASA had loaned the sample disk to the
     Observatory in 1978, and the loan agreement
     between the two organizations had expired in
     June 2008. However, due to an administrative
     oversight and the lack of a system to adequately
     track renewal dates for long-term loans, the
     Exhibits Manager did not contact Mount Cuba
     regarding the loan until February 2010. At that
                                                                     Figure 2. Example of a lunar sample disk.
     time, the Exhibits Manager learned that the
                                                                     The six-inch diameter disk contains three
     responsible Mount Cuba employee had died the                    soil and three rock materials encapsulated in
     previous year and that the Observatory could not                clear acrylic.
     locate the sample. As of December 2011, the                     Source: NASA
     disk still has not been found.

     NASA has been experiencing loss of astromaterials since lunar samples were first
     returned by Apollo missions. In addition to the Mount Cuba disk, NASA confirmed that
     516 other loaned astromaterials have been lost or stolen between 1970 and June 2010,
     including 18 lunar samples reported lost by a researcher in 2010 and 218 lunar and
     meteorite samples stolen from a researcher at Johnson in 2002, but since recovered. 2 As
     a result of the Mount Cuba incident and concerns about additional unknown losses, the
     OIG initiated an audit to assess NASA’s controls over loans of astromaterials. The
     number of astromaterial samples NASA has loaned to researchers has increased by more
     than 60 percent over the last decade. Additionally, NASA is planning new missions
     intended to collect more samples from across the solar system. Accordingly, NASA’s
     control of and accountability for these rare and valuable materials must be reliable.
     Details of the audit’s scope and methodology are in Appendix A.

     Results

     NASA lacks sufficient controls over its loans of moon rocks and other astromaterials,
     which increases the risk that these unique resources may be lost. Specifically, we found
     that Curation Office records were inaccurate, researchers could not account for all
     samples loaned to them, and researchers held samples for extended periods without
     performing research or returning the samples to NASA. In addition, although NASA

     2
         As of December 2011, the Curation Office was still searching for the 18 lost lunar samples.



ii                                                                                        REPORT NO. IG-12-007
OVERVIEW



   recently improved controls over loans to educators, we identified additional opportunities
   for NASA to strengthen its practices and update its policies for loans of astromaterials for
   education and public display purposes.

   NASA’s Controls over Research Loans of Astromaterials Are Inadequate. The
   Curation Office does not exercise sufficient controls over the astromaterials NASA loans
   for scientific study. Using NASA records, we performed an inventory of astromaterial
   samples on loan to 59 of the 377 U.S. researchers. This group represented 16 percent of
   U.S. researchers with loaned materials and 23 percent of all NASA astromaterial samples
   on loan as of March 30, 2011. 3 In examining this group of 59 researchers, we found that:

          • Eleven of the 59 researchers (19 percent) could not account for all samples NASA
            records indicated had been loaned to them or possessed samples that, according to
            NASA records, had been destroyed or loaned to other individuals.

         • Curation Office records included (1) hundreds of samples that no longer exist and
           (2) loans to 12 researchers who had died, retired, or relocated, in some cases
           without the Office’s knowledge and without returning samples.

         • The Curation Office did not ensure that these loaned research samples were
           efficiently used and promptly returned to NASA. For example, we learned of one
           researcher who still had lunar samples he had borrowed 35 years ago on which he
           had never conducted research.

   These conditions occurred for several reasons. First, the Curation Office did not require
   loan agreements or have in place other internal procedures for safeguarding loans of
   meteorites and cosmic dust samples. Loan agreements specify the conditions for the loan
   and include security plans prescribing precautions for guarding against theft or
   unauthorized use of astromaterial samples. NASA requires loan agreements for lunar,
   Genesis, and Stardust samples but does not require such agreements for meteorites or
   cosmic dust samples. Moreover, the Office maintains guidebooks and internal
   procedures to help ensure lunar, Genesis, and Stardust samples are adequately controlled
   and properly accounted for but has never established similar controls over meteorites and
   cosmic dust samples. 4




   3
       Details of our methodology and sampling plan are in Appendix A and Appendix B.
   4
       NASA Policy Directive (NPD) 7100.10E, “Curation of Extraterrestrial Materials (Revalidated
       01/10/2008).”



REPORT NO. IG-12-007                                                                                iii
                                                                                                      OVERVIEW



     Even in those instances when NASA has required researchers to sign loan agreements,
     the agreements have not consistently specified:

           •   that researchers must independently provide NASA with an annual inventory of
               all samples in their custody; 5

           •   an agreed-upon timeframe for conducting research on and returning samples to
               NASA;

           •   procedures for notifying and returning samples to NASA upon the researcher’s
               death, retirement, or other change in status or place of employment; or

           •   that researchers must obtain NASA’s permission to perform destructive analysis
               on loaned samples.

     In addition, NASA’s loan agreements do not contain enforceable sanctions for
     noncompliance with the terms of the agreement.

     Second, the Office did not consistently follow its inventory procedures for astromaterial
     samples. For example, we found that although NASA policy required an annual
     inventory from holders of loaned materials, the Curation Office did not consistently
     request these inventories. In fact, the Office had never requested inventories of Stardust
     samples and, prior to our audit, had not requested inventories of lunar samples held at
     locations other than Johnson since 2008. Additionally, we found that the Office’s
     inventory practices depend on (1) the type of sample in question and (2) whether
     borrowers store samples at Johnson.

     Third, the Curation Office’s annual inventory procedures are inadequate and do not
     account for all loaned samples. Specifically, to have researchers verify the samples they
     hold, the Office provides them with a list based on its records and requests they confirm
     its accuracy. We believe that an example of a more reliable inventory method would be
     to request that researchers provide the Office with a list of the samples in their possession
     and then reconcile the researchers’ lists with Agency records. In addition, the Curation
     Office said that due to funding constraints it has not performed a complete physical
     inventory of all lunar samples loaned to researchers since the 1980s.

     NASA’s Controls over Educator and Public Display Loans Need Strengthening. At
     the time of our fieldwork, NASA had 455 astromaterial sample disks available for
     education purposes and 94 lunar exhibits on long-term public display. We found that the
     Agency’s controls over these samples need improvement. For example, the Johnson
     Exhibits Manager who tracks long-term loans (loans that exceed 1 year) of lunar material,
     like the loan to the Mount Cuba Astronomical Observatory, does not have an adequate
     system to track loaned exhibits and ensure loan agreements are up-to-date. In addition,

     5
         Loan agreements for lunar samples only require researchers to respond if NASA requests an annual
         inventory.



iv                                                                                     REPORT NO. IG-12-007
OVERVIEW



   NASA’s policies do not require, and the Exhibits Manager does not conduct, an annual
   inventory of these exhibits.

   Furthermore, although NASA has taken some steps over the last 2 years to improve
   controls over loans of lunar and meteorite samples for use in classrooms, related Agency
   policies are out of date and do not accurately reflect current practices and organizational
   responsibilities. 6

   NASA has strengthened the Curation Office’s role in educator and public display loans
   and has begun the process of updating the relevant policy, which expired in June 2011. 7
   However, NASA needs to continue improving its oversight over materials loaned for
   education and public display by updating all relevant policies, ensuring that all long-term
   loan agreements are up-to-date, and obtaining an accurate inventory of long-term loans.
   With lunar and meteorite samples loaned to classrooms around the country and exhibits
   disbursed across 25 states, the District of Columbia, and 13 foreign countries, NASA
   must ensure these materials are properly protected and accounted for.

   Conclusion. For over 40 years, NASA has loaned astromaterial samples to researchers
   and shared lunar and meteorite exhibits with educators and the public. However, the
   materials remain the property of the U.S. Government and may only be borrowed for
   approved research, educational pursuits, and public display. 8 Additionally, while loan
   periods may range from days to years, these transfers are not intended to be permanent,
   and NASA retains the right to recall its samples and exhibits at any time. Because NASA
   does not have adequate controls in place, the Agency cannot be sure of the location and
   security of all of its loaned astromaterials and therefore is at risk of losing these unique
   and limited resources.




   6
       NPD 1387.1G, “NASA Exhibits Program (Revalidated 3/17/10),” November 15, 1999; NASA Procedural
       Requirements (NPR) 1387.1, “NASA Exhibits Program w/Change 2 (Revalidated 3/17/10);”
       NPD 1387.2F “Use, Control, and Loan of Lunar Samples for Public and Educational Purposes
       (Revalidated 2/28/05);” and NPD 7100.10E, “Curation of Extraterrestrial Materials (Revalidated
       01/10/2008).”
   7
       During the audit, NASA extended the expiration date of NPD 1387.2F from June 28, 2011, to
       December 29, 2011. The OIG provided suggested changes to ensure that the update includes accurate and
       necessary information. As of December 2011, NASA had not finalized the update.
   8
       Lunar material retrieved from the Moon during the Apollo Program is U.S. Government property. Lunar
       material may also be present in some meteorites that fall to Earth, but this lunar material is not necessarily
       regulated or U.S. Government property.



REPORT NO. IG-12-007                                                                                                    v
                                                                                        OVERVIEW



     Management Action

     To strengthen internal controls and ensure efficient use and proper protection of loaned
     astromaterials, we recommended that NASA (1) establish detailed procedures for
     safeguarding loaned materials; (2) require loan agreements for all types of materials and
     strengthen the agreements currently in use; (3) establish procedures for tracking retention
     periods and ensure that researchers timely use and, when required, promptly return
     loaned samples; (4) evaluate practices for ensuring inventory procedures are effectively
     implemented and consistently followed; and (5) strengthen the inventory verification
     process. To further improve controls over astromaterials loaned for education and public
     display purposes, we also recommended that NASA (1) establish an effective tracking
     system and annual inventory requirements for long-term loans; (2) review all long-term
     loan agreements to identify expired agreements and either renew the agreements or recall
     the exhibits; and (3) review and update all relevant policies.

     In response to a draft of our report, the Acting Associate Administrator for the Science
     Mission Directorate concurred with our recommendations. We consider the Acting
     Associate Administrator’s comments and proposed actions to be responsive to our
     recommendations. The recommendations will be closed upon completion and
     verification of the proposed actions. The full text of his comments are provided in
     Appendix C.




vi                                                                          REPORT NO. IG-12-007
DECEMBER 8, 2011




                                                       CONTENTS

   INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 8

   RESULTS
      NASA’s Controls over Research Loans of Astromaterials Are
        Inadequate _______________________________________ 9
      NASA’s Controls over Educator and Public Display Loans Need
        Strengthening ____________________________________ 19

   APPENDIX A
      Scope and Methodology _______________________________ 23
      Review of Internal Controls ____________________________ 25
      Prior Coverage ______________________________________ 25

   APPENDIX B
      Sampling Approach for Review of Astromaterials Loaned to
        Researchers _____________________________________ 26

   APPENDIX C
      Management Comments ______________________________ 28

   APPENDIX D
      Report Distribution ___________________________________ 33




REPORT NO. IG-12-007
DECEMBER 8, 2011




                                                                         INTRODUCTION
Background

   Materials originating from extraterrestrial environments, commonly referred to as
   astromaterials, are a rare and limited resource for research, education, and as a legacy for
   future generations. NASA’s collection of astromaterials includes lunar rock and soil
   samples; meteorites from asteroids, Mars, and the Moon; ions from the outer layers of the
   Sun (Genesis); dust from comets and interstellar space (Stardust); and cosmic dust from
   Earth’s stratosphere. To promote investigation of the origin and evolution of the solar
   system and the nature and distribution of life, NASA loans astromaterial samples to
   researchers worldwide. To inspire the next generation of explorers and inform the public
   about NASA’s space programs, the Agency also loans lunar and meteorite displays to
   schools, libraries, museums, and planetariums. However, NASA does not consider
   requests for loans of these samples from individuals acting on their own behalf.

   NASA’s Astromaterials Acquisition and Curation Office (Curation Office), managed by
   the Agency’s Astromaterials Curator, is located within the Astromaterials Research and
   Exploration Science (ARES) Directorate at Johnson Space Center. The mission of the
   Office is to support the international planetary science community through curation of
   NASA’s collection of astromaterials. NASA defines curation as the documentation,
   preservation, preparation, and distribution of samples for research, education, and public
   outreach. In addition to the Astromaterials Curator, the Office employs curators
   dedicated to each type of astromaterial.

   As described below, NASA’s current astromaterials collection includes approximately
   140,000 lunar samples, 18,000 meteorite samples, and over 1,000 samples each of
   Genesis, Stardust, and cosmic dust.

   Apollo Lunar (Lunar) and Antarctic
   Meteorite (Meteorite) Samples. Between
   1969 and 1972, the six Apollo missions
   returned 842 pounds of lunar material
   (2,196 individual rock, soil, and core
   samples) that subsequently have been split
   into about 140,000 subsamples. Since 1977,
   the Antarctic Search for Meteorites Program
   – a cooperative effort among NASA, the
   National Science Foundation, and the
   Smithsonian Institution – has recovered
   over 18,000 meteorites that originated from
   asteroids, Mars, and the Moon. Lunar and         Figure 3. Lunar sample compared to a dime
   meteorite samples are measured in grams          weighing 2.3 grams.
   (1 gram = ≈ 0.035 ounce). Many lunar and         Source: NASA



REPORT NO. IG-12-007                                                                              1
                                                                                                 INTRODUCTION



    meteorite samples loaned to researchers are 1 gram or less in weight. In comparison, the
    weight of a dime is 2.3 grams. Figure 3 shows the size of a lunar sample compared to the
    size of a dime.

    Genesis Solar Wind Atoms (Genesis). Launched in 2001, NASA’s Genesis spacecraft
    captured solar wind – a stream of ions ejected from the outer layers of the Sun, composed
    mostly of electrons and protons. Since 2004, NASA has cataloged 1,500 Genesis
    collector fragments. Because of their extremely small size, the Curation Office does not
    measure the samples in terms of weight or size.

    Comet and Interstellar Dust Particles (Stardust) and Cosmic Dust Samples.
    Launched in 1999, NASA’s Stardust spacecraft collected over 1,200 grains of cometary
    dust particles and approximately 135 grains of interstellar dust particles as it passed the
    comet Wild-2. Cosmic dust grains and orbital debris are collected in the stratosphere by
    high-flying aircraft. Currently, Johnson has over 2,000 cosmic dust particles in its
    collection. Stardust particles and cosmic dust are measured in micrometers (μm) (1 μm =
    ≈ 0.000039 inch). Stardust grains generally measure less than 1 μm in diameter and
    cosmic dust particles are approximately 5–10 μm in diameter. By comparison, the
    diameter of an average human hair is approximately 100 μm (see Figure 4).




                  Cosmic dust particle      Track of cosmic dust         Strand of human
                                            particle in collector gel    hair

    Figure 4. Cosmic dust particle compared to a strand of human hair.
    Source: NASA

    NASA’s collection of astromaterials is the property of the U.S. Government and loans are
    permitted for research, education, and public display only. NASA’s collection is slated to
    grow in December of this year when the Japan Aerospace Exploration Agency plans to
    transfer to NASA 10 percent of the asteroid samples collected by the Hayabusa
    spacecraft. 9

    As shown in Figure 5, NASA’s Science Mission Directorate is responsible for approving
    allocations of astromaterials for scientific research, education, and public display.
    However, the Curation Office assists the Science Mission Directorate in NASA’s
    outreach efforts by ensuring astromaterials are available and distributing the appropriate
    sample. Thus, for each samples collection, the Astromaterials Curator has assigned a
    curator within the Curation Office to be the dedicated manager of that collection.

    9
        Launched in 2003 by Japan, Hayabusa collected about 1,500 grains of particles from the asteroid
        Itokawa.



2                                                                                       REPORT NO. IG-12-007
INTRODUCTION



   NASA’s Office of Education implements the Agency’s Education Program and through
   the Aerospace Education Services Project, provides certification courses required for
   teachers who want to apply for loans of astromaterials for classroom examination and
   study. The Curation Office manages the loans and makes lunar and meteorite education
   disks available to teachers. 10 NASA’s Office of Communications is responsible for the
   Exhibits Program, which provides a limited number of lunar displays managed and
   approved by the Exhibits Manager through Johnson’s Public Affairs Office.

   Figure 5. Management and Distribution of Astromaterials for Research, Education, and Public
   Display

                                                    NASA Science
                                                      Mission
              NASA Office of                         Directorate                        NASA Office of
                Education                                                              Communications

                                                     Agency-level
                                                    Management of
                                                    Astromaterials
                  NASA’s                                                                     NASA’s
                 Education                                                                   Exhibits
                 Program                                                                     Program
                                             Johnson Astromaterials
                                          Acquisition and Curation Office



                                                                                             Johnson
                                                     Curation Office                          Exhibits
                                                       Curators                              Manager*


                                                                                          Astromaterials
               Astromaterials                       Astromaterials for
                                                        Research                            for Public
               for Education
                                                                                             Display


                                                                                          Museums,
               Educators                              Researchers
                                                                                         Observatories,
                                                                                             etc.



    Legend:
    ___ - Formal, direct relationship or responsibility
    ----- - Informal, indirect relationship or respons bility
    *
      The Exhibits Manager resides within Johnson’s Public Affairs Office, which reports directly to the Johnson Center
    Director



   The Curation Office uses a database to track NASA’s inventory of astromaterial samples.
   The database contains information on each sample’s weight, whether it has been split into

   10
        The disks contain six small samples of lunar rocks and soils or meteorites embedded in acrylic.



REPORT NO. IG-12-007                                                                                                      3
                                                                                                     INTRODUCTION



    smaller subsamples, and whether the samples and subsamples have been loaned to
    researchers for scientific study or included as part of an educational or public display.
    The database also contains information about loan agreements and loan expiration dates
    for researcher and educator loans, but the Johnson Exhibits Manager is responsible for
    tracking similar information for public display loans.

    Scientific Research Loans. NASA’s policy is to encourage scientific research on
    natural materials returned from extraterrestrial environments to derive maximum
    scientific and technological information. In accordance with this policy, NASA loans
    astromaterial samples to researchers who demonstrate that their proposed research has
    received a favorable scientific peer review. 11 Researchers submit research requests that
    include the justification, methods, and benefits of the planned research to the appropriate
    material curator within the Curation Office. The curator reviews requests and assesses
    the scientific content of the proposal, capability of the proposer, and availability of
    requested samples. The curator then decides whether he or she is required to request an
    additional outside review. For all requests except those involving meteorite samples,
    outside reviews are performed by the Curation and Analysis Planning Team for
    Extraterrestrial Materials (CAPTEM), a standing committee of scientists who advise
    NASA on the care and use of all astromaterial samples except Antarctic meteorites.
    CAPTEM ensures that appropriate samples have been selected and performs a peer
    review. 12 For Antarctic meteorites, NASA, the National Science Foundation, and the
    Smithsonian Institution signed a trilateral agreement and formed a Meteorite Steering
    Group to manage and control the meteorites. The Steering Group has its Meteorite
    Working Group perform the outside reviews and make recommendations back to the
    Steering Group for allocation of samples.

    Upon approval of a request, the curator prepares the appropriate sample, establishes a
    loan agreement between NASA and the borrower (unless the loan involves meteorites or
    cosmic dust samples for which NASA does not require a loan agreement), and distributes
    the sample. Unless NASA has given prior approval to perform destructive analysis,
    NASA expects borrowers to return all lunar, Genesis, and Stardust samples as soon as
    their research is completed. NASA requires the return of meteorite samples only when
    they originate from rare meteorites, which make up approximately 25 percent of the
    Agency’s meteorite collection. Because of their small size – only 5–10 μm in diameter
    (approximately one-tenth the width of a human hair) – NASA does not expect researchers
    to return cosmic dust samples. Figure 6 illustrates the process flow for scientific research
    loans of astromaterials.


    11
         The peer review may include determining if the proposal has been: (1) recommended by any NASA
         program needing a planetary or scientific study within the past 3 years; (2) recommended and funded by
         any foreign or domestic government or non-profit agency; or (3) supported by reprints of scientific
         articles published in peer-reviewed professional journals and pertaining directly to the specific research
         methods to be applied.
    12
         For example, outside reviews are required of all lunar researchers unless requested samples have already
         been used for research purposes.



4                                                                                           REPORT NO. IG-12-007
INTRODUCTION




   As of March 2011, NASA had 10,293 lunar, 11,955 meteorite, 418 Genesis,
   1,266 Stardust, and 2,670 cosmic dust samples on loan to 595 researchers worldwide. As
   shown in Table 1, the number of samples loaned by the Agency to researchers increased
   by 62 percent over the last decade.




REPORT NO. IG-12-007                                                                        5
                                                                                                  INTRODUCTION



                   Table 1. Number of Astromaterial Samples Loaned to Researchers
                                           by Fiscal Year
                                                    Fiscal Year
    Collection          2001     2002     2003     2004    2005       2006    2007       2008 2009       2010
    Lunar                426      232      152      221     199        261      252      218   264         436
    Meteorites           340      194      503      503     693        495      520      702   771         571
    Genesis                                                  87        106       85       53    62          50
    Stardust                                                           450      339      210    78         217
    Cosmic Dust          122       46       29       69       57                194      121   109         167
        Total            888      472      684      793    1,036     1,312    1,390    1,304 1,284       1,441

    Increase In Total Number of Samples Loaned Between 2001 and 2010                          62 percent
    Source: Report to CAPTEM, “Astromaterials Acquisition and Curation at JSC: November 2009 -
    November 2010.”


    Educator and Public Display Loans. NASA provides opportunities for people in the
    United States and around the world to view and study lunar and meteorite samples by
    loaning samples for educational purposes and public display. To that end, the Curation
    Office has 455 lunar and meteorite education disks similar to those pictured in Figure 7
    available for K-12 classroom examination via short-term loans (usually 2 weeks) to
    qualified U.S. schoolteachers. 13

                                                             As with loans to researchers, loans of lunar
                                                             and meteorite education disks require an
                                                             application, loan agreement, and security
                                                             plan approved by the Curation Office.
                                                             Educators are also required to attend a
                                                             training course that includes, but is not
                                                             limited to, security requirements and proper
                                                             handling procedures before being allowed
                                                             to use an education disk in their classroom.

                                                       NASA’s Exhibits Program provides several
    Figure 7. Examples of lunar and meteorite          different types of displays (see Figure 8)
    education disks used for K-12 classroom study.     for use on a short- or long-term basis at
    Source: NASA                                       museums, planetariums, expositions, or
    professional events open to the public. Currently, NASA has 94 lunar exhibits on long-
    term display worldwide. For example, the Exhibits Program has provided long-term
    displays to the visitor facilities at or associated with the NASA Centers and to the
    Smithsonian Institution’s National Air and Space Museum as well as to institutions in
    25 states, the District of Columbia, and 13 foreign countries.

    13
         In addition to kindergarten-12th grade (K-12) disks, NASA also prepares thin sections of lunar rocks on
         rectangular 1 x 2-inch glass slides that are suitable for use in U.S. colleges and universities.



6                                                                                         REPORT NO. IG-12-007


                                                                               .
INTRODUCTION



                                                       The Johnson Exhibits Manager
                                                       coordinates all requests with the
                                                       Curation Office and seeks CAPTEM’s
                                                       approval on the suitability of requests
                                                       and availability of new samples for
                                                       display purposes. The Manager
                                                       provides successful applicants
                                                       instructions for receiving, displaying,
                                                       and returning exhibits. All loans of
                                                       astromaterials for public display
                                                       require a loan agreement signed by the
                                                       Exhibits Manager and the borrower
                                                       and a security plan approved by
   Figure 8. Apollo 15 lunar sample exhibit.           Johnson’s Security Office. While the
   Source: NASA                                        Curation Office database records
                                                       which astromaterials have been
   included in exhibits for public display, the only means the Exhibits Manager has for
   tracking loan expiration dates is to review his paper files.

   Goodwill Moon Rocks and Ambassador of Exploration Awards. In addition to the
   astromaterial samples available for scientific research, education, and public display
   loans, in 1973 President Nixon gave fragments from one of the last rocks collected from
   the Moon to foreign heads of state and each of the 50 U.S. states as a symbol of goodwill.
   During the final moonwalk of the Apollo missions, Apollo 17 astronauts Eugene Cernan
   and Harrison Schmitt picked up the rock– known as the “Goodwill Rock” – and stated
   that they would like to share pieces of it with the children of the world. Though NASA
   still has about 80 percent of the original rock, the hundreds of fragments that were given
   to countries around the world and each U.S. state are not tracked by NASA.

   In addition, over the years NASA has awarded lunar samples to individuals the Agency
   has named “Ambassadors of Exploration” in recognition of the contributions of the
   astronauts and other individuals who were part of the Mercury, Gemini, and Apollo
   programs. To date, NASA has named over 30 Ambassadors of Exploration, including
   astronauts Alan Shepard and Neil Armstrong and former U.S. Senator and astronaut John
   Glenn. NASA presents each honoree with a lunar sample that remains the property of
   NASA but may be publicly displayed in the honoree’s name at the museum or
   educational institution of their choice. Since these lunar samples remain NASA property,
   the Exhibits Manager tracks their location.

   Confirmed Losses of Astromaterials. NASA has confirmed that 517 astromaterial
   samples have been lost or stolen between 1970 and June 2010, including 218 lunar and
   meteorite samples stolen during a single theft from a researcher at Johnson in 2002 (with
   all of the material subsequently recovered), and 18 lunar samples reported lost by one
   researcher in 2010. 14 In June 2010, the Johnson Exhibits Manager notified NASA
   14
        As of December 2011, the Curation Office was still searching for the 18 lost lunar samples.


REPORT NO. IG-12-007                                                                                  7
                                                                                 INTRODUCTION



    Security and the Office of Inspector General that a disk containing lunar samples was
    missing from the Mount Cuba Astronomical Observatory in Greenville, Delaware.
    NASA loaned the disk to the Observatory in 1978 and the loan agreement between the
    two organizations expired in June 2008. However, due to an administrative oversight and
    the lack of a system to adequately track renewal dates for exhibits on long-term loan, the
    Exhibits Manager did not contact Mount Cuba to renew the loan until February 2010. At
    that time, the Exhibits Manager learned that the responsible Mount Cuba employee had
    died the previous year and that the Observatory could not locate the exhibit. As of
    December 2011, the disk still had not been found.


Objectives

    Our audit assessed NASA’s controls over astromaterial samples loaned for research,
    education, and public display. See Appendix A for details of the audit’s scope and
    methodology, our review of internal controls, and a list of prior coverage.




8                                                                         REPORT NO. IG-12-007
RESULTS




                              NASA’S CONTROLS OVER RESEARCH LOANS OF
                                      ASTROMATERIALS ARE INADEQUATE
              To test NASA’s controls, we used Agency records to verify the existence and
              location of astromaterial samples loaned to selected researchers. We reviewed
              4,991 samples on loan to 59 researchers in the Houston and Washington, D.C.,
              areas as of March 30, 2011. 15 According to Agency records, these individuals
              represented 16 percent of the U.S. researchers with loaned materials and the group
              possessed 23 percent of the samples loaned to researchers across the country.

              We found that NASA is fulfilling its mission to distribute astromaterials for
              scientific study. However, we also found that the Agency lacks sufficient controls
              over its loans of moon rocks and other astromaterials once they have been
              transferred to borrowers. Specifically, we found that some researchers could not
              account for all samples NASA records indicated had been loaned to them, or
              possessed samples that, according to NASA records, had been destroyed or
              loaned to other individuals. In addition, Curation Office records included
              hundreds of samples that no longer exist and loans to researchers who had died,
              retired, or relocated, in some cases without the Office’s knowledge. Finally, the
              Curation Office had not ensured that loaned samples were used for agreed upon
              research purposes and promptly returned to NASA.

              These conditions occurred because the Curation Office had not established
              procedures – including requiring loan agreements – to manage meteorites and
              cosmic dust samples. Further, the loan agreements the Agency required for lunar,
              Genesis, and Stardust samples did not contain basic elements necessary to protect
              the loaned materials. Finally, inventory procedures are not consistently followed
              and need improvement. As a result of these deficiencies, NASA does not
              properly safeguard loaned materials, has little assurance of the location or
              continued existence of the loaned materials, and is at risk of losing more of these
              unique and limited resources.


   Researchers Could Not Account for All Samples Loaned to Them and Agency
   Records Did Not Contain Accurate Information Regarding Loaned Samples. We
   found that 11 of the 59 researchers in our sample (19 percent) could not account for all
   samples Agency records indicated had been loaned to them or had in their custody
   samples that, according to Agency records, did not exist or had been loaned to other
   individuals. Specifically, 7 researchers could not account for 22 meteorites and

   15
        The Houston group included researchers at the Johnson Space Center, the Lunar and Planetary Institute,
        University of Houston, Rice University, and Texas A&M University. The Washington, D.C., group
        included researchers at NASA Headquarters, Goddard Space Flight Center, Carnegie Institution of
        Washington, and U.S. Department of Interior (U.S. Geological Survey). See Appendix B for details of
        our sampling approach.



REPORT NO. IG-12-007                                                                                             9
                                                                                                           RESULTS



     2 Stardust samples. When questioned, the researchers either (1) speculated that the
     samples must have been destroyed during research or (2) after searching admitted that the
     samples had been lost, and we reported the loss to the appropriate NASA curator. Of the
     24 missing samples, NASA expected that 11 of the meteorite samples and both Stardust
     samples would be returned to the Agency at the completion of approved research. Of the
     11 meteorite samples, 5 have been reported lost, 5 were reported destroyed during testing,
     and the Meteorite Curator continues to investigate the status of the remaining sample. 16
     During our audit fieldwork, we notified the Stardust Curator about the two missing
     Stardust samples and he initiated an investigation. 17

     Additionally, we found that 3 researchers possessed 20 samples that, according to
     Curation Office records, had either been destroyed or were on loan to other researchers.
     Because research is often collaborative, NASA permits researchers who have obtained
     prior approval to share samples with other researchers. However, 18 of the 20 samples
     had been reported lost or destroyed by the original borrower. For example, we found one
     researcher with nine meteorites that the researcher of record told us had been destroyed
     during his research. Further, two samples (one lunar and one meteorite) with the same
     sample identification number were simultaneously held by two researchers. It appears
     that the researcher of record of the lunar sample split off a piece of the sample and gave it
     to the other individual. This practice was inconsistent with the Lunar Sample Allocation
     Guidebook, which required the researcher of record to return the sample to the Curation
     Office to request splitting. If approved, the Office would have given the subsample a
     new number before providing it to the second researcher. Because NASA was not aware
     that these 20 samples existed, their loss or theft could be overlooked.

     NASA Records Included Loans of Samples That No Longer Exist and Loans to
     Researchers Who Had Died, Retired, or Relocated. We found that the Curation
     Office’s inventory records contained inaccurate information for hundreds of samples that
     had been destroyed through research. For example, the Office’s records indicated that
     one researcher should have had in his custody 199 cosmic dust samples loaned to him by
     NASA; however, the samples were destroyed as a result of approved research.
     Additionally, the Office’s records indicated that another researcher should have had
     88 meteorite samples, although these samples had also undergone destructive analysis
     and, therefore, no longer exist.

     Overall, the Curation Office’s inventory records contained inaccurate information for
     12 of 59 researchers (20 percent) in our sample. Specifically, NASA had loaned these
     researchers 94 meteorites and cosmic dust samples and, since obtaining the materials,
     3 of the researchers had died as long as 9 years ago, 4 had changed locations/employers

     16
          A researcher told us that five of the meteorites that NASA expected to be returned were destroyed during
          research. When we informed the Meteorite Curator, he said he did not believe the meteorites were
          destroyed based on information he obtained in a corresponding published research paper. The Meteorite
          Curator is addressing this situation with the Meteorite Working Group and the Astromaterials Curator.
     17
          The Curator’s investigation disclosed that the samples were lost in 2006 while the samples were being
          prepared for study.



10                                                                                        REPORT NO. IG-12-007
RESULTS



   as long as 21 years ago, and the remaining 5 had retired as long as 17 years ago.
   Although NASA was aware of most of these events, the Curation Office had not updated
   its records to reflect the status of the samples. Of the 94 samples, 7 of the meteorites
   were expected to be returned to NASA. As of December 2011, NASA had retrieved 4 of
   the 7 meteorites, provided permission for a researcher to keep 1 sample for further study,
   and as a result of our audit determined 1 sample is lost and was attempting to locate the
   remaining sample.

   Researchers Had Not Efficiently Used and Returned to NASA Valuable Lunar and
   Meteorite Samples. To determine whether researchers efficiently used and promptly
   returned loaned astromaterials, we asked 25 of the 59 researchers in our sample when
   they last performed research using the lunar or meteorite samples in their possession. 18
   Three of the researchers did not provide the requested information. The remaining
   22 indicated that, on average, they had not used the meteorite samples for at least 5 years
   and the lunar samples for at least 15 years. Additionally, one researcher had in his
   possession nine lunar samples borrowed from NASA 35 years earlier on which he had
   never conducted research. Another researcher had never conducted research on ten
   meteorite samples he kept for an average of 14 years. Still another researcher retained
   36 lunar samples for an average of 16 years after he had completed his research. When
   we asked these individuals why they kept materials they were not using for research
   purposes, some said they had requested the samples in anticipation of planned research
   only to encounter delays such as obtaining funding for their research. Others told us that
   it never occurred to them to return the samples after they had conducted their research.
   Still others stated that they held the samples in anticipation of needing them “some day.”


Curation Office Had Not Established Adequate Controls over
  Astromaterials

   The control weaknesses identified during our review occurred because:

          •   the Curation Office had not established procedures to maintain control over
              meteorites and cosmic dust and did not require loan agreements for these
              materials;

          •   loan agreements pertaining to lunar, Genesis, and Stardust samples did not
              contain basic elements necessary to protect loaned materials; and

          •   the Office did not consistently follow inventory procedures or ensure that the
              procedures were adequate.

   18
        We excluded Genesis and Stardust samples because all loans of these materials were made less than
        5 years ago. We also excluded cosmic dust samples because NASA does not require return of these
        samples. Based on this methodology, we determined that 25 of the 59 researchers were in possession of
        lunar and/or meteorite samples they had been loaned at least 5 years ago. See Appendix B for our
        sampling approach.



REPORT NO. IG-12-007                                                                                            11
                                                                                                            RESULTS



     Required Procedures for Managing Meteorites and Cosmic Dust Samples Did Not
     Exist. Although NASA policy requires the Astromaterials Curator to develop detailed
     procedures relating to curation of astromaterials, the Curation Office had not established
     such procedures for meteorites and cosmic dust samples. 19 The Office maintains
     guidebooks and other internal procedures intended to ensure lunar, Genesis, and Stardust
     samples are adequately controlled and properly accounted for but has not produced
     similar materials pertaining to meteorite and cosmic dust samples. In fact, the Office
     does not even require loan agreements – the only binding contractual document between
     NASA, the borrower, and the borrower’s employing institution – for these materials.
     Generally, NASA does not expect researchers to return most meteorites or cosmic dust
     samples; however, NASA does consider about 25 percent of all loaned meteorites to be
     sufficiently rare and valuable to require they be returned after the borrower completes his
     or her research. 20 However, without proper procedures including binding loan
     agreements NASA cannot properly manage these assets. For example, during our review
     the Meteorite Curator requested that we interview a researcher holding 13 meteorite
     samples who had been unresponsive to the Curator’s repeated requests that he return 3 of
     the samples to NASA. 21

     Most of the weaknesses we observed in NASA’s procedures were associated with loans
     of meteorites and cosmic dust. Furthermore, the Astromaterials Curator acknowledged
     that meteorites are at particular risk of theft because, unlike other types of materials, they
     can be collected on Earth and legally owned by private citizens. Therefore, an offer to
     sell a stolen meteorite would draw less attention from authorities than an offer to sell
     Apollo lunar samples or other astromaterials that NASA has collected in space and, as a
     result, are the legal property of the U.S. Government.

     To improve NASA’s controls over the loans of meteorite and cosmic dust samples and
     reduce the risk that these assets may be lost or stolen, the Curation Office should
     establish procedures, including requiring that borrowers sign loan agreements prior to
     receiving the materials.

     Loan Agreements Lack Basic Elements. As noted above, the Curation Office requires
     researchers to sign loan agreements to obtain lunar, Genesis, and Stardust samples.
     However, the agreements the Office was using were not adequate to ensure loaned
     astromaterial samples were properly safeguarded. As shown in Table 2, depending on
     the type of astromaterials being loaned, loan agreements did not always include the
     following basic controls:

            • a requirement that researchers independently provide NASA with an annual
              inventory of all samples in their custody;
     19
          NASA Policy Directive (NPD) 7100.10E, “Curation of Extraterrestrial Materials (Revalidated
          01/10/2008).”
     20
          Cosmic dust samples are usually destroyed during research.
     21
          We verified that the researcher had all 13 samples and arrangements were made for return of the
          3 samples to the Curation Office.



12                                                                                        REPORT NO. IG-12-007
RESULTS



         •   an agreed-upon timeframe for using samples and, when applicable, returning them
             to the Agency;

         •   procedures for immediately notifying NASA and returning samples upon a
             researcher’s death, retirement, or other change in status/place of employment;

         •   a requirement to obtain NASA’s permission to perform destructive analysis using
             loaned samples; or

         •   enforceable sanctions for noncompliance with the agreement.

                  Table 2. Elements of Loan Agreements by Type of Astromaterials
                                                                                             Meteorites and
                      Element                          Lunar       Genesis     Stardust      Cosmic Dusta
   Samples identified as property of the U.S.
                                                          Yes         Yes          Yes              N/A
   Government
   Requirement to report annual inventory                Yesb          No          No               N/A
   Requirement that samples be stored in a safe
                                                          Yes         Yes          Yes              N/A
   or secured storage cabinet
   Designated timeframe for samples to be
                                                          No           No           No              N/A
   returned
   Notification procedure for when
                                                          No           No           No              N/A
   researcher’s employment status changes
   Explicit permission for destructive analysis
                                                          Yes          No           No              N/A
   on the sample
   Sanctions for failure to comply with loan
                                                          No           No          No               N/A
   agreement
     a
       The Curation Office does not require researchers to sign loan agreements for meteorites and cosmic
       dust samples.
     b
       Per the lunar loan agreement, researchers are only required to report annual inventories of loaned lunar
       samples if NASA specifically requests them.

   Without these essential elements, NASA has little assurance that the loaned
   astromaterials will be properly safeguarded and accounted for or that researchers will
   follow NASA policy. For example, although the Curation Office’s internal procedures
   state that researchers will complete annual inventories of Genesis and Stardust samples,
   the loan agreements make no reference to such inventories and therefore the borrowers
   are not legally obligated to complete them. In addition, in the absence of specific
   sanctions laid out in the agreement, NASA has little recourse if a researcher chooses not
   to comply. For example, although the lunar sample loan agreement requires researchers
   to perform an annual inventory of loaned samples and report the results to NASA, the
   agreement does not provide a mechanism for enforcement of this requirement. In fact,
   according to the Lunar Sample Curator, NASA received only about 70 percent of


REPORT NO. IG-12-007                                                                                              13
                                                                                                            RESULTS



     requested inventories in 2008 (its most recent completed inventory request prior to our
     audit) and all but 5 responses the previous year. 22 To further illustrate, one researcher did
     not respond to NASA’s repeated requests for an inventory for 9 years. This researcher
     died prior to May 2010, and the 18 lunar samples that NASA had loaned him are now
     missing.

     The only recourse for non-compliance with the loan agreements currently available to
     NASA requires the Agency to prove that a borrower willfully lost or damaged the
     samples. In addition, the Curation Office can refuse requests for additional samples from
     researchers who have lost or damaged loaned samples. Loan agreements that clearly
     spell out what is expected of researchers and the consequences of non-compliance would
     help ensure that loaned samples are used, safeguarded, and returned as intended.

     Inventory Procedures Are Not Consistently Followed and Need Improvement. The
     Curation Office did not consistently follow its inventory procedures for astromaterial
     samples. The Office’s internal policies state that the Office will annually request
     researchers to verify that inventories of Stardust, lunar, and Genesis samples in their
     custody match NASA’s records. 23 However, we found that the Office had never
     requested an inventory of Stardust samples and, prior to our audit, had not requested an
     inventory since 2008 of lunar samples maintained outside Johnson property. 24
     Additionally, the Curation Office did not request an inventory of Genesis samples in
     2009. Moreover, the Office’s inventory practices depend on (1) the type of sample in
     question and (2) whether borrowers store samples at Johnson.25

     Moreover, the Curation Office’s inventory procedures are weak and do not ensure that all
     loaned samples are accounted for. Specifically, the Office provides researchers a list of
     the astromaterial samples NASA records indicate have been loaned to them and requests
     that the borrower review the list, annotate any discrepancies, and sign and date the list
     verifying the samples that are in their custody. 26 This inventory method allows the
     possibility that borrowers can simply sign the form without actually verifying that their
     inventory matches the Office’s records. Since the Curation Office does not have the
     resources to physically verify samples on loan, we believe an example of a more reliable

     22
          The Lunar Sample Curator started the 2011 inventory verification in February 2011. As of the date of
          this report, it was not complete.
     23
          The inventory verifications are called for in the Curation Office’s Lunar Sample Allocation Guidebook,
          June 2007; Genesis Research Sample Investigator’s Guidebook, May 2006; and Stardust Sample
          Investigator’s Guidebook, August 2006.
     24
          The Stardust Curator stated that since loans of Stardust samples began in 2006 he had never requested a
          complete inventory of researchers with loaned materials. However, in January 2011 the Curator began
          performing random spot checks and verified the inventory of the researcher who possessed the most
          loaned Stardust samples. The Curator told us that he is considering performing more inventory checks in
          the future.
     25
          Approximately 15 percent of all astromaterial samples on loan are located at Johnson.
     26
          Sample Control and Data Procedure 43 states that for researchers located at Johnson with lunar samples,
          the Curator provides the inventory listing to Johnson Security Office. Security then performs a physical
          verification of the accuracy of the listing.



14                                                                                         REPORT NO. IG-12-007
RESULTS



   method would entail requesting each researcher to provide the Office with a list of the
   samples in the researcher’s custody so that NASA officials can reconcile reported
   inventories with Agency records and take action when the two lists do not match. 27


NASA Risks Losing Its Unique and Limited Resources

   For over 40 years, NASA has loaned astromaterials to researchers. The materials, which
   are highly sought after and vulnerable to theft, remain the property of the U.S.
   Government, and NASA retains the right to recall loaned samples at any time. However,
   because NASA does not have adequate controls over its loans, the Curation Office cannot
   be assured of the security, location, or even the continued existence of loaned samples.
   Consequently, NASA is at risk of losing samples distributed to researchers.

   It is imperative that NASA ensure that its curation procedures evolve to meet the
   challenges of a growing and diverse collection of extraterrestrial samples. For example,
   in December 2011 the Japan Aerospace Exploration Agency plans to transfer to NASA
   10 percent of the particles it collected from the Asteroid Itokawa. Also, in May 2011
   NASA announced plans to launch its own spacecraft that will one day return samples
   from an asteroid, thereby enabling research to better explain our solar system’s formation
   and how life began. 28 Until NASA improves controls of astromaterials loaned to
   researchers, the Agency risks failing to fulfill its mission to preserve samples for research
   and future study.



Recommendations, Management’s Response, and Evaluation of
Management’s Response

   To strengthen internal controls for the efficient use and proper protection of NASA’s
   irreplaceable astromaterials collection, the Astromaterials Curator, in conjunction with
   the Johnson Space Center Director, should:

   1. Establish procedures for controlling loaned meteorite and cosmic dust samples to
      include guidebooks, internal procedures, and loan agreements.

          Management’s Response. Concur. The Acting Associate Administrator for the
          Science Mission Directorate stated that the Curation Office will develop guidebooks
          and loan agreements for Antarctic meteorites and cosmic dust. The meteorite
          guidebook and loan agreement will be developed in consultation with the Meteorite

   27
        Curation Office officials said they has not performed a complete physical inventory of their collection of
        lunar samples loaned to researchers since the 1980s due to funding constraints.
   28
        The mission, Origins-Spectral Interpretation-Resource Identification-Security-Regolith Explorer
        (OSIRIS-Rex), will launch in 2016, use a robotic arm to collect samples, and be the first U.S. mission to
        carry samples from an asteroid back to Earth.



REPORT NO. IG-12-007                                                                                                 15
                                                                                            RESULTS



        Working Group while CAPTEM will be consulted on the cosmic dust guidebook and
        loan agreement. In addition, the Office of General Counsel will review the loan
        agreements prior to their finalization. Existing borrowers will transition to the new
        loan agreements at the time of their next annual inventory. Finally, the Curation
        Office will review current internal procedures and update or develop new procedures
        for loans of meteorite and cosmic dust samples.

        Estimated Completion Date: October 1, 2012

        Evaluation of Management’s Response. Management’s proposed actions are
        responsive; therefore, the recommendation is resolved and will be closed upon
        completion and verification of the corrective actions.

     2. Require that loan agreements include essential elements necessary to ensure that
        NASA’s materials are safeguarded, used, and, when applicable, returned to NASA. At
        a minimum, the loan agreements should contain:

        •   a requirement that researchers provide an annual inventory, including the status of
            research completed and any samples consumed;
        •   the maximum time period a researcher may retain any sample before returning the
            sample or requesting an extension;
        •   procedures for immediate notification of changes in researcher status (i.e.,
            employment changes, relocation, etc.), and changes in the custody of a loaned
            sample;
        •   a requirement for explicit permission to perform destructive analysis using a
            loaned sample; and
        •   a detailed description of actions NASA will take if researchers fail to comply with
            any element of the loan agreement.
        Management’s Response. Concur. The Acting Associate Administrator stated that
        existing loan agreements will be revised and that loan agreements for meteorites and
        cosmic dust samples will be developed. The loan agreements will require sample
        recipients to perform annual inventories, provide immediate notification of changes in
        researcher status, request explicit permission for destructive analysis, identify specific
        actions NASA will take if researchers fail to comply, and require that samples be
        returned or loans renewed by the expiration of the loan period. In addition, NASA
        will draft policies for the duration of all types of loans.

        Estimated Completion Date: March 2012

        Evaluation of Management’s Response. Management’s proposed actions are
        responsive; therefore, the recommendation is resolved and will be closed upon
        completion and verification of the corrective actions.




16                                                                           REPORT NO. IG-12-007
RESULTS



   3. Establish procedures for tracking loaned astromaterial sample retention periods and
      ensure that researchers efficiently use and, when required, promptly return loaned
      samples.

      Management’s Response. Concur. The Acting Associate Administrator stated that
      the date of loan, expiration date, and any relevant renewal periods specific to each
      sample will be tracked in the curatorial databases along with critical loan information
      such as permission for destructive analysis. The procedure for tracking and
      requesting return of samples will be tied to annual inventories. In addition, the
      Curation Office will develop procedures for following up on cases of noncompliance
      and document those procedures in the guidebooks for each type of sample.
      Moreover, when a loan period expires, the borrower will be required to request
      renewal and provide justification for the request. Finally, the Office, in conjunction
      with CAPTEM and the Working Group, will evaluate whether it is in NASA’s best
      interest to approve a borrower’s loan application renewal request or deny it and
      request return of a sample.

      Estimated Completion Date: October 1, 2012

      Evaluation of Management’s Response. Management’s proposed actions are
      responsive; therefore, the recommendation is resolved and will be closed upon
      completion and verification of the corrective actions.

   4. Evaluate the Curation Office’s practices for ensuring that established inventory
      procedures have been effectively implemented, are consistently followed, and are
      applicable to all researchers.

      Management’s Response. Concur. The Acting Associate Administrator stated that
      annual inventories will be required of all scientists who receive astromaterial loans
      and that this requirement will be communicated in the loan agreements.

      Estimated Completion Date: March 2012

      Evaluation of Management’s Response. Management’s proposed actions are
      responsive; therefore, the recommendation is resolved and will be closed upon
      completion and verification of the corrective actions.

   5. Strengthen the current annual inventory verification procedure to improve NASA’s
      assurance that all applicable astromaterial samples are accounted for. At a minimum,
      NASA should consider requiring researchers to maintain a record of samples in their
      custody and supply NASA the inventory for reconciliation with the Curation Office’s
      records. In addition, NASA’s internal procedures should provide detailed steps to
      correct any deficiencies noted and NASA should adjust and update its inventory
      records accordingly, including removing from its records any samples that have been
      destroyed or returned.



REPORT NO. IG-12-007                                                                            17
                                                                                     RESULTS



     Management’s Response. Concur. The Acting Associate Administrator agreed that
     researchers must maintain a record of the samples in their custody and stated that the
     revised guidebooks and loan agreements will remind researchers of this requirement.
     In addition, the Curation Office will review current procedures and update or develop
     new procedures as needed. As part of this process, NASA will evaluate the procedure
     suggested in the recommendation along with a variety of alternate procedures.

     Estimated Completion Date: October 1, 2012

     Evaluation of Management’s Response. Management’s proposed actions are
     responsive; therefore, the recommendation is resolved and will be closed upon
     completion and verification of the corrective actions.




18                                                                     REPORT NO. IG-12-007
RESULTS




                    NASA’S CONTROLS OVER EDUCATOR AND PUBLIC
                            DISPLAY LOANS NEED STRENGTHENING

          In May 2009, NASA’s Science Mission Directorate and Office of Education
          implemented new procedures governing loans of lunar and meteorite education disks
          to U.S. educators. Pursuant to these procedures, most existing education disks were
          collected from the various NASA Centers and centralized at the Johnson Curation
          Office for distribution. In addition, in February 2010 the NASA Administrator
          created executive-level offices of Education and Communications responsible for
          implementing NASA’s Education Program and managing the exhibits that inform
          the public about the Agency’s aeronautics and space programs, respectively.
          Although these changes have improved NASA’s controls over loans, NASA needs to
          take additional steps, including establishing an effective tracking system for long-
          term loans of lunar exhibits and requiring annual inventories of loaned materials.
          Moreover, NASA has not updated its policies to reflect these organizational changes.

   Management of Long-term Loans of Lunar Exhibits Is Inadequate. NASA’s
   management of long-term loans of lunar exhibits is inadequate and needs improvement.
   Specifically, the Johnson Exhibits Manager, who at the time of our fieldwork was
   responsible for 94 long-term loans of lunar exhibits worldwide, does not have an
   adequate system to effectively track the renewal dates of the loans. Moreover, NASA’s
   policies do not require, and the Exhibits Manager does not conduct, an annual inventory
   of these loaned exhibits.

   As previously discussed, the loan agreement for the Mount Cuba loan expired in June
   2008. In 2010, the Exhibits Manager was reviewing display loan files when he realized
   the Mount Cuba loan was almost 2 years past due. The Exhibits Manager contacted
   Mount Cuba to renew the loan, at which time he learned that the Mount Cuba employee
   responsible for the display had died the previous year. Despite what Mount Cuba
   officials characterized as an exhaustive search, the Mount Cuba display was still missing
   as of December 2011. As a result of this incident, the Exhibits Manager said he realized
   he needed a better system to track expiration dates on the long-term loans for which he is
   responsible.

   When loans are due to expire, the Exhibits Manager should promptly contact the
   institution and renew the loan or recall the exhibit. The Exhibits Manager acknowledged
   that he did not contact borrowers in a timely manner and that a tracking system was
   needed. He also told us that there could be other loan agreements that have not been
   renewed on a timely basis. Reliance on the Exhibits Manager’s review of files on an
   ad hoc basis does not ensure long-term loans are timely renewed. The lack of a tracking
   system – particularly when coupled with a lack of annual inventories – does not promote
   proper management of NASA’s long-term loans of lunar exhibits or succession planning
   in the event the current Exhibits Manager retires or changes jobs. Specifically, his


REPORT NO. IG-12-007                                                                            19
                                                                                                    RESULTS



     successor may be unaware of the status of NASA’s loans since relevant information is
     not contained in a manner that comprehensively tracks the loans.

     If the Exhibits Manager had a tracking system and had annually contacted those
     institutions with exhibits on long-term loan to conduct an inventory, NASA might have
     earlier discovered that the Mount Cuba exhibit was missing and had a better chance of
     recovering it.

     Agency-wide Policies Had Not Been Updated to Reflect New Procedures,
     Responsibilities, and Organizational Changes. In accordance with NASA Procedural
     Requirements (NPR) 1400.1E, “NASA Directives and Charters Procedural
     Requirements,” July 15, 2011, NASA directives are effective for 5 years. When a
     directive is about to expire, the Agency can choose to revalidate it for an additional
     5 years if “the directive is current, necessary, and requires no changes” or if only minor
     administrative changes are needed.

     In March 2010, NASA revalidated its policies governing the Exhibits Program. 29
     However, NASA did not ensure that these and related policies reflected the procedural
     and organizational changes the Agency implemented between 2009 and 2010 (see
     Table 3). For example, the policies do not explain that the Johnson Exhibits Manager is
     responsible for managing all exhibits that contain a lunar sample. Similarly, NASA’s
     policy on the use of lunar samples for public and educational purposes (NPD 1387.2F)
     does not reflect that as of May 2009 the Curation Office is responsible for managing the
     lunar and meteorite education disk program. During the audit, NASA acknowledged that
     this policy was out of date and began the process of updating the policy. During the
     audit, NASA extended the NPD’s expiration date from June 28, 2011 until December 29,
     2011. We provided suggested changes to ensure that the update includes accurate and
     necessary information; however, as of early December 2011 NASA had not finalized the
     revised policy.




     29
          NPD 1387.1G, “NASA Exhibits Program” (effective, November 15, 1999; revalidated March 17, 2010;
          expiration, November 15, 2015); and NPR 1387.1, “NASA Exhibits Program w/Change 2” (effective,
          January 9, 1999; revalidated, March 17, 2010; expiration, March 17, 2015).



20                                                                                  REPORT NO. IG-12-007
RESULTS




    Table 3. Revalidation Dates of Policies Governing NASA’s Exhibits Program and Use of
                     Lunar Samples for Public and Educational Purposes.

                  Policy                    Effective Date        Date Revalidated       Expiration Date
   NPD 1387.1G, “NASA Exhibits           November 15, 1999        March 17, 2010        November 15, 2015
   Program”
   NPR 1387.1, “NASA Exhibits            January 9, 1999          March 17, 2010        March 17, 2015
   Program w/Change 2”
   NPD 1387.2F, “Use, Control, and
   Loan of Lunar Samples for Public      February 29, 2000        February 28, 2005     December 29, 2011a
   and Educational Purposes”
   NPD 7100.10E, “Curation of            February 11, 2003        January 10, 2008      February 11, 2013
   Extraterrestrial Materials”
     a
         During the audit, NASA extended the expiration date from June 28, 2011 until December 29, 2011.

   Conclusion. While NASA has taken the first steps toward strengthening controls over
   loans of lunar and meteorite samples for education and public display, the Agency needs
   to maintain an accurate inventory of exhibits on long-term loan, ensure all loan
   agreements are current, and update its policies associated with these loans. With lunar
   and meteorite samples loaned to classrooms around the country and exhibits disbursed
   across 25 states, the District of Columbia, and 13 foreign countries, NASA must ensure
   that its limited number of astromaterials available for educational use and public display
   are properly protected and accounted for.



Recommendations, Management’s Response, and Evaluation of
Management’s Response

   To strengthen NASA’s controls over astromaterials loaned for education and public
   display purpose, we recommended the following:

   6. The Johnson Center Director should establish a comprehensive tracking system and
      annual inventory requirements for long-term loans of lunar exhibits.

          Management’s Response. Concur. The Acting Associate Administrator for the
          Science Mission Directorate stated that during the audit the Johnson Exhibits
          Manager developed a prototype system to track loan and renewal dates for all
          institutions. NASA will evaluate this system and make adjustments as necessary.
          The Exhibits Manager will use the Long-Term Lunar Sample Display Annual Survey
          to determine how borrowers are using loaned displays.

          Estimated Completion Date: September 30, 2012



REPORT NO. IG-12-007                                                                                         21
                                                                                        RESULTS



        Evaluation of Management’s Response. Management’s proposed actions are
        responsive; therefore, the recommendation is resolved and will be closed upon
        completion and verification of the corrective actions.

     7. The Johnson Exhibits Manager should review all agreements for long-term loans of
        lunar exhibits, identify any expired agreements, and either renew the agreements or
        recall the exhibits, as necessary.

        Management’s Response. Concur. The Acting Associate Administrator stated that
        all agreements for long-term loans of lunar exhibits will be reviewed. Any expired
        agreements will be revaluated and agreements either will be renewed or the sample(s)
        recalled as appropriate.

        Estimated Completion Date: September 30, 2012

        Evaluation of Management’s Response. Management’s proposed actions are
        responsive; therefore, the recommendation is resolved and will be closed upon
        completion and verification of the corrective actions.

     8. The Associate Administrators for Education and Communications, and the Acting
        Associate Administrator for the Science Mission Directorate should review and update
        Agency policies governing loans of astromaterial samples for education and public
        display purposes to reflect current processes and organizational responsibilities.

        Management’s Response. Concur. The Acting Associate Administrator stated that
        NASA is updating NPD 1387.2G to reflect the current process and organizational
        responsibilities for educational and public display loans. NASA will also review
        NPD 1387.1G and NPR 1387.1 and update them as necessary. The Acting Associate
        Administrator also stated that while the Associate Administrator for Education does
        not have a role in governing such loans, Education remains a stakeholder in the
        process and will be asked to review and concur with the polices before they are
        finalized.

        Estimated Completion Date: Spring 2012

        Evaluation of Management’s Response. Management’s proposed actions are
        responsive; therefore, the recommendation is resolved and will be closed upon
        completion and verification of the corrective actions.




22                                                                        REPORT NO. IG-12-007
APPENDIXES




                                                                                        APPENDIX A


Scope and Methodology

   We performed this audit from March 2011 through November 2011 in accordance with
   generally accepted government auditing standards. Those standards require that we plan
   and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based on our audit objectives. We believe that the
   evidence obtained provides a reasonable basis for our findings and conclusions based on
   our audit objectives.

   The scope of our audit was controls over astromaterials loaned for research, education,
   and public display purposes within the United States. Our review included lunar,
   meteorite, Genesis, Stardust, and cosmic dust samples loaned for research purposes; lunar
   and meteorite samples loaned for education purposes; and lunar samples loaned for
   public display. 30 We reviewed each type of loan separately because the Agency uses
   different processes and controls for each type. We focused primarily on loans for
   research purposes because they account for most loans made by the Curation Office and
   have a higher risk of sample loss than loans for education or public display purposes. See
   Appendix B for the sampling approach we used to review astromaterials loaned to
   researchers.

   Researcher Loans. NASA has 10,293 lunar, 11,955 meteorite, 418 Genesis,
   1,266 Stardust, and 2,670 cosmic dust samples on loan to 595 researchers worldwide.
   We reviewed 4,991 astromaterials on loan to 52 researchers in the Houston, Texas, area
   and 7 researchers in the Washington, D.C., area as of March 30, 2011. The Houston
   group included researchers at the Johnson Space Center, the Lunar and Planetary
   Institute, University of Houston, Rice University, and Texas A&M University. The
   Washington, D.C., group included researchers at NASA Headquarters, Goddard Space
   Flight Center, Carnegie Institution of Washington, and U.S. Department of Interior (U.S.
   Geological Survey).

   To accomplish the review, we identified and reviewed policies, processes, and controls
   pertaining to the loans. To understand the Agency’s basic policy for the curation of
   astromaterials, we interviewed NASA’s Astromaterials Curator and reviewed
   NPD 7100.10E, “Curation of Extraterrestrial Materials.” To identify and understand the
   processes and controls, we interviewed the curators and reviewed Curation Office
   guidebooks. The interviewed curators included the Lunar Sample Curator, Meteorite
   Curator, Genesis Sample Curator, and Stardust/Cosmic Dust Curator. The guidebooks

   30
        The Curation Office also loans space exposed hardware samples to researchers. We did not review these
        loans because the loans are an informal activity and average about one loan per year.



REPORT NO. IG-12-007                                                                                            23
                                                                                                   APPENDIX A



     included the Lunar Sample Allocation Guidebook, Stardust Sample Investigator’s
     Guidebook, and Genesis Research Sample Investigator’s Guidebook. To verify and test
     the processes and controls, we interviewed the selected researchers; conducted physical
     inventories of astromaterials in their possession; and reviewed the Office’s files on each
     researcher, including loan agreements, security plans, sample assignment
     acknowledgements, and the researcher’s verifications of inventories. We also reviewed
     researchers’ use of astromaterials by asking researchers to provide dates they last used
     judgmentally selected lunar and meteorite samples. 31 We used the dates the researcher
     provided to calculate the average length of time the researchers held the samples without
     using them for research.

     Educator Loans. NASA has a total of 455 lunar and meteorite education disks available
     for loan for education purposes. To verify and test controls over the Education Disk
     Program, we reviewed and accounted for 70 percent (320 out of 455) of the education
     disks managed by Johnson’s Educational Sample Center. To understand the relevant
     procedures, requirements, and controls we interviewed the Education Curator and
     reviewed NPD 1387.2F, “Use, Control, and Loan of Lunar Samples for Public and
     Educational Purposes.” We conducted a physical inventory and observed 78 percent
     (248 out of 320) of the education disks available. We did not physically observe the
     remaining 72 disks because they were on loan to various education facilities around the
     nation. To account for the 72 education disks that were on loan, we reviewed related
     records, including lunar/meteorite sample disk certification forms, loan agreements, and
     security plans.

     Public Display Loans. NASA has 94 lunar sample displays on exhibit worldwide. We
     reviewed two displays on loan to exhibitors in Houston, Texas, as of March 30, 2011: the
     Houston Museum of Natural Science and Space Center Houston. We limited our review
     to the loans in Houston due to limited audit resources and because astromaterials loaned
     for public display have a relatively low risk of loss. To accomplish the review, we
     identified and reviewed requirements, procedures, and controls pertaining to NASA’s
     Exhibits Program. We interviewed the Johnson Exhibit Manager and reviewed NPD
     1387.1G, “NASA Exhibit Program,” and NPR 1387.1, “NASA Exhibits Program
     w/Change 2.” To verify and test controls, we interviewed officials with the Houston
     Museum of Natural Science and Space Center Houston, and conducted physical
     inventories of astromaterials in the exhibitors’ possession. We also reviewed related
     records including the exhibitors’ Lunar Sample Display Agreements for Long-Term
     Display, security plans, and sample assignment acknowledgements.

     Use of Computer-Processed Data. We used computer-processed data provided by the
     Astromaterials Acquisition and Curation Office in order to select our samples to perform
     this audit. Specifically, we used computer-generated lists of astromaterials loaned to
     researchers in the Houston, Texas, and Washington, D.C., areas. However, because we
     identified several internal control weaknesses with NASA’s inventory records, as

     31
          See Appendix B for the sampling approach we used to select the samples for the review.



24                                                                                       REPORT NO. IG-12-007
APPENDIX A



   described in this report, we could not rely on the computer-processed data. As a result,
   we compared the appropriate source documents to what we observed in the inventory to
   verify whether the astromaterials at the various locations and records were accurate and
   complete.

   Review of Internal Controls

   We examined NASA’s internal controls over loans of astromaterial samples, to include
   the use and control of the samples on loan. We determined that the internal controls over
   astromaterials loaned to researchers need improvement to minimize risk of loss.
   Additionally, practices and policies over astromaterials loaned for education and public
   display need strengthening. See the “Results” section of the report for details.

   Prior Coverage

   During the last 5 years, the NASA Office of Inspector General (OIG) and the
   Government Accountability Office (GAO) have not issued any reports of relevance to the
   subject of this report. However, the NASA OIG issued Report Number A-JS-86-04,
   “Final Report on the Management and Control of Lunar Materials Program,” dated
   October 22, 1987. The report examined, but was not limited to, reviews of lunar samples
   loaned to domestic researchers and lunar samples under the control of the Public Affairs
   Office. The review of loans to domestic researchers disclosed problems concerning the
   performance of annual inventories and proper execution of lunar sample loan agreements.
   The review of samples under control of the Public Affairs Office disclosed that the Office
   had not established adequate procedures and controls for safeguarding the samples for
   public display and educational activities.




REPORT NO. IG-12-007                                                                            25
                                                                                                       APPENDIX B




                                                     SAMPLING APPROACH FOR REVIEW
                                                         OF ASTROMATERIALS LOANED
                                                                   TO RESEARCHERS


     As of March 31, 2011, NASA had loaned 21,580 astromaterial samples to
     377 researchers located throughout the United States. To best utilize our audit resources,
     we limited our review to astromaterials loaned to researchers located in the Houston,
     Texas, and the Washington, D.C., areas. We reviewed all astromaterials loaned to
     researchers in the Houston area and lunar samples loaned to researchers in the
     Washington, D.C., area. 32 As shown in Table 4, our review covered 23 percent of the
     astromaterial samples loaned to 16 percent of the researchers in the United States.

          Table 4. Number of Astromaterial Samples on Loan and Number of Samples Reviewed
                                                                   Number of Samples by Type
                               Number of                                                      Cosmic
          Location             Researchers     Lunar      Meteorite    Genesis    Stardust     Dust       Total
     United States                377          8,827       9,426        277         929       2,121       21,580
          Houston, Texas            52         2,039       1,281          12         97          826       4,255
          Washington, D.C.           7           657          79           0           0           0         736
        Total                       59         2,696       1,360          12         97          826       4,991
     Percentage
                                   16%          31%         14%          4%         10%         39%        23%
     Reviewed

     To determine whether researchers kept samples for extended periods either before or after
     conducting research, we asked researchers to provide the dates they last used specific
     lunar and meteorite samples we judgmentally selected. 33 Because researchers at Johnson
     generally had more samples than researchers located elsewhere, we used two approaches
     to select samples for review

            1. Researchers Located at Johnson. We used the number of samples held by the
               researchers as the basis for selecting samples for review. If a researcher had 50 or
               fewer samples of a particular astromaterial, we asked for the last used date for all
               samples. If a research had more than 50 samples, we requested last use dates for
               10 percent of randomly selected samples. For example, if a researcher had
               45 lunar samples and 90 meteorite samples, we asked for the last use dates for all
               45 of the lunar samples and 9 (10 percent of 90) of the meteorite samples.

     32
          At the request of the Meteorite Curator, we also interviewed a researcher with meteorite samples because
          the researcher had been nonresponsive to NASA’s repeated attempts to contact him.
     33
          We excluded Genesis and Stardust samples because all of the allocations were made less than 5 years
          ago. We also excluded cosmic dust because they are not returned to NASA at the end of the loan period.



26                                                                                         REPORT NO. IG-12-007
APPENDIX B



      2. Researchers Located Elsewhere. We used the number of years that researchers
         had samples in their custody as the basis for selecting samples for review.
         Because NASA had not established reasonable timeframes for sample use and
         return, we judgmentally considered 5 years a reasonable period for researchers to
         use and return samples. Consequently, we asked researchers to provide the date
         they last used any lunar or meteorite sample held for more than 5 years.




REPORT NO. IG-12-007                                                                         27
                       APPENDIX C




     MANAGEMENT COMMENTS




28            REPORT NO. IG-12-007
APPENDIX C




REPORT NO. IG-12-007   29
              APPENDIX C




30   REPORT NO. IG-12-007
APPENDIX C




REPORT NO. IG-12-007   31
              APPENDIX C




32   REPORT NO. IG-12-007
APPENDIX D




                                                        REPORT DISTRIBUTION

National Aeronautics and Space Administration

   Administrator
   Deputy Administrator
   Chief of Staff
   Associate Administrator, Office of Communications
   Associate Administrator, Office of Education
   Associate Administrator, International and Interagency Relations
   Associate Administrator, Science Mission Directorate
          Director, Planetary Science Division
   Director, Johnson Space Center
          Director, Astromaterials Research and Exploration Science Directorate
          Manager, Astromaterials Acquisition & Curation Office
          Exhibits Manager
   NASA Advisory Council’s Audit, Finance, and Analysis Committee

Non-NASA Organizations and Individuals

   Office of Management and Budget
      Deputy Associate Director, Energy and Science Division
          Branch Chief, Science and Space Programs Branch
   Government Accountability Office
      Director, NASA Financial Management, Office of Financial Management and
         Assurance
      Director, NASA Issues, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

   Senate Committee on Appropriations
      Subcommittee on Commerce, Justice, Science, and Related Agencies
   Senate Committee on Commerce, Science, and Transportation
      Subcommittee on Science and Space
   Senate Committee on Homeland Security and Governmental Affairs
   House Committee on Appropriations
      Subcommittee on Commerce, Justice, Science, and Related Agencies
   House Committee on Oversight and Government Reform
      Subcommittee on Government Organization, Efficiency, and Financial Management
   House Committee on Science, Space, and Technology
      Subcommittee on Investigations and Oversight
      Subcommittee on Space and Aeronautics


REPORT NO. IG-12-007                                                                  33
Major Contributors to the Report:
   Rebecca Sharek, Director, Space Operations Directorate
   Loretta Atkinson, Project Manager
   Barbara Moody, Lead Auditor
   Eugene Bauer, Auditor
   Jim Griggs, Auditor
   Doug Orton, Auditor
   Cedric Campbell, Legal Counsel
   Melissa Martinez, Program Assistant




REPORT NO. IG-12-007                                        35
                                                                              DECEMBER 8, 2011
                                                                   REPORT No. IG-12-007




                                                                            OFFICE OF AUDITS

                                                            OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY12/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
